Nos. 19-431 & 19-454

 

IN THE

Supreme Court of the United States

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HoME,

Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA, et al. >
Respondents.

DONALD J. TRUMP, PRESIDENT OF THE
UNITED STATES, et al.,

Petitioners,
¥.
COMMONWEALTH OF PENNSYLVANIA, ef al.,
Respondents.

On Writs of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF AMICUS CURIAE
THE CATHOLIC BENEFITS ASSOCIATION
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

6,761 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 6, 2020.

 

Wilson-Epes Printing Co., Inc.
